           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




       INDEPENDENT LIVING
        RESOURCE CENTER
      OF NORTHEAST FLORIDA


   August 2005     A-15-05-25045




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   August 2, 2005                                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Independent Living Resource Center of Northeast Florida (A-15-05-25045)



        OBJECTIVE

        Our objective was to determine whether the Social Security Administration’s (SSA)
        funds were used in accordance with the terms of its grant (number 16-T-10101-4) with
        the Independent Living Resource Center of Northeast Florida (Center).

        BACKGROUND

        The Ticket to Work program1 was established to improve access to employment training
        and placement services for people with disabilities who want to work. Under the Ticket
        to Work program, eligible beneficiaries can receive employment services, vocational
        services or other services to help them return to work. The program provides the
        beneficiary with the opportunity to choose from a variety of employment networks.
        Employment networks can be a single entity, a partnership or alliance of entities (public
        or private), or a consortium of organizations collaborating to combine resources to serve
        ticket holders. Employment networks coordinate and deliver employment, vocational
        rehabilitation, or other support services.2

        The Office of Acquisition and Grants’ (OAG) mission is to acquire a quality product at a
        reasonable price, that fully meets the needs of the user and to accomplish the
        objectives of SSA’s research and demonstration programs at a reasonable cost. SSA,
        OAG uses the terms cooperative agreement and grants interchangeably. Therefore we
        also use the terms interchangeably. The Grants Administration Manual and Grants
        Policy Handbook have criteria for both cooperative agreements and grants. As
        authorized under SSA’s Ticket to Work program, OAG awarded cooperative
        agreements to a variety of community organizations identified as part of the Agency’s


        1
            Ticket to Work and Work Incentives Improvement Act of 1999, Pub.L. 106-170, December 17, 1999.
        2
         Employment networks are private nonprofit organizations or other government agencies that sign
        cooperative agreements with SSA.
Page 2 - The Commissioner


Benefits Planning, Assistance, and Outreach (BPAO) program.3 The BPAO program
was one of several programs under the Ticket to Work Program. Community
organizations that were part of the BPAO program provided benefit planning assistance
service. The Office of Disability Income and Security Programs (ODISP) administered
SSA’s BPAO program and coordinated the Ticket to Work program for SSA’s grants
among States and nonprofit organizations. The project officers in ODISP’s Employment
Support Programs worked closely with OAG to ensure the terms of the grants were
fulfilled.4

In July 2001, at the direction of ODISP, OAG awarded a 5-year BPAO grant to the
Center, a nonprofit organization located in Jacksonville, Florida. The grant covered five
counties5 and allowed the Center to claim up to $236,304 over the first 3 years of the
grant, which it did. The Center assisted consumers with disabilities by providing work
incentives planning and assistance and outreach programs in meeting the individual’s
goals and needs for achieving or continuing independent living.

We reviewed costs claimed under the grant from July 2001 through June 2004.
Specifically, we reviewed the quarterly progress reports and the required Financial
Status Reports (FSR), Standard Forms 269A6 (SF-269A) submitted to SSA. The
SF-269A reports the use of SSA funding.

RESULTS OF REVIEW

During the course of our audit, we determined the Center’s accounting records were
inconsistent with the SF-269As submitted to SSA. We also determined there were
discrepancies in the Center’s accounting records, contributing to unreliable financial
reporting. We interviewed Center employees who informed us management directed




3
 The BPAO program provides all SSA disabled beneficiaries access to benefits planning and assistance
service.
4
 ODISP project officers are responsible for implementing the technical, scientific, and programmatic
aspects of SSA’s cooperative agreements.
5
    The five counties are: Nassau, Baker, Clay, Duval, and St. John.
6
 Office of Management and Budget (OMB) Circular A-110 - Uniform Administrative Requirements for
Grants and Agreements With Institutions of Higher Education, Hospitals, and Other Nonprofit
Organizations (as amended 9/30/99), Subpart C, Section .52 states “…each Federal awarding agency
shall require recipients to use the SF-269 or SF-269A to report the status of funds for all nonconstruction
projects or programs.”
Page 3 - The Commissioner


increases to SSA program expenses. Additionally, we found employees were not
reporting time spent on federally funded projects as required by Federal regulations7
and the Center’s policies and procedures.

CHANGED ACCOUNTING RECORDS

We obtained and reviewed two accounting reports, a summary report and a detailed
report, for costs incurred by the Center under the BPAO program for the time period
July 1, 2002 through June 30, 2003. We compared the amounts reported on both
reports and determined that the financial information was not consistent. One report
was the year-end Profit and Loss statement dated August 12, 2003, which showed SSA
expenses as $63,739 for the period ended June 30, 2003. The second report was the
year-end Transaction Detail by Account8 report dated August 4, 2004, which showed
SSA expenses as $79,199 for the period ended June 30, 2003. There was an increase
of $15,460 in expenses between the two reports. Even though the detailed transaction
report was prepared almost 1 year after from the summary report, it showed no
additional transactions to support the increased expenses.

We interviewed two employees who had knowledge of the Center’s finances. We asked
why there was a difference in expenses between the two reports. One employee stated
that after year-end reporting, a former Center senior manager requested staff to make
increases to SSA’s program expenses. The second employee also stated that the
records were changed. These actions resulted in an overstatement of expenses in the
Center’s accounting records for SSA’s BPAO program. While we could identify the
$15,460 by category, we could not identify the $15,460 by individual transaction. Nor
could the Center provide support for the increase of $15,460.

Because of the difference in expenses ($15,460) between the two reports, SSA should
direct the Center to refund to SSA the overstated amount of $15,460, for the
unsupported increases in the accounting records. SSA should also increase its
financial oversight of the Center to ensure it is accurately recording expenditures.9

MISREPRESENTED FINANCIAL REPORTS

We also compared expenditures in the accounting records for the BPAO program to the
amounts reported as expenditures on the SF-269A. For Fiscal Years (FY) 2002 through


7
  OMB Circular A-122, Cost Principles for Nonprofit Organizations, Attachment B, Section 7.m.(1) states
"…charges to awards for salaries and wages will be based on documented payrolls approved by a
responsible official(s) of the organization." Further, Attachment B, Section 7.m.(2) states that "…reports
reflecting the distribution of activity of each employee must be maintained for all staff members…."
8
  The Transaction Detail by Account report is a detailed listing of the individual transactions entered into
the accounting system.
9
  OMB Circular A-122, Cost Principles for Nonprofit Organizations, Attachment A, Section A.2.g., requires
for costs to be allowable, they must be adequately documented.
Page 4 - The Commissioner


2004, the Center's accounting records contained expenditures of $224,714. However,
the expenditures on the SF-269A were certified as $236,304.

This was an overstatement of $11,590 for 3 years of the grant as shown in the table
below.


       Comparison of Amounts per Accounting Records to Amounts per Financial Status Reports

                                           Claimed Federal        Amount Stated Per
                                          Share of Outlays on       the Center's           Overstated
Cooperative Agreement Year                  the SF-269A *        Accounting Records         Amount

Year 1 (July 2001-June 2002)             $              78,768   $             75,514      $    3,254

Year 2 (July 2002-June 2003)             $              78,768   $             79,199      $     (431) *

Year 3 (July 2003-June 2004)             $              78,768   $             70,001      $    8,767

Total                                    $             236,304   $            224,714      $   11,590


  *Note: The funding limit provided by SSA was $78,768 per year. Therefore, any amount over
this limit would not be funded. Issues related to the unsupported cost amount reported by the
Center in Year 2 are detailed in the first finding on page 3.

By signing the SF-269A the authorizing official of the Center acknowledged and certified
that the report was correct and complete and that all Federal outlays and unliquidated
obligations were for the purpose set forth in the award documents. Further, the SSA
Grants Policy Handbook10 states at the discretion of the SSA Grants Manager,
unobligated funds, if any, will be dealt with in one of the following manners: 1) used to
offset funding in the current year, 2) allowed to be spent for approved purposes, or 3)
left in the grant account for subsequent utilization.

The Center reported greater amounts of expenditures on the SF-269A than what was
recorded in their accounting records. We found no basis for the increased amounts
reported for the 3 years of the grant. As a result, SSA should direct the Center to justify
the additional $11,590 which exceeded its accounting records or to refund the
overstated $11,590. SSA should also increase its financial oversight of the Center.




10
     SSA Grants Policy Handbook applies to all grants, including cooperative agreements.
Page 5 - The Commissioner


EMPLOYEES DID NOT REPORT THEIR TIME SPENT ON FEDERALLY FUNDED
PROJECTS

During our review, we noted that the Center’s employees were not in compliance with
OMB Circular A-122,11 which required employees to complete personnel activity sheets
to account for the time spent on individual projects. The employees working on the
BPAO program also worked on other projects. As a result, we could not determine
whether payroll charges of $159,747, the total for the 3 FYs, made to the BPAO
program were accurate or if Federal funds provided by the grant benefited only the
BPAO program.

After our testing was completed, we obtained a report12 issued by the Florida
Department of Education/Division of Vocational Rehabilitation Bureau of Compliance
and Oversight. The report findings were similar to our findings concerning the
nonaccountability of time spent on individual federally funded projects. (See
Appendix C for report findings.) The report states:

      “…only one of the 13 timesheets reviewed contained the employee’s signature.
      None of the timesheets contained the employee number, department, cost
      center number, or signature of the staff person’s immediate supervisor. As a
      result, the timesheets reviewed did not show any splits of time between costs
      charged to centers or grants.”

Employees are required by Federal regulations13 to accurately report the time they
allocate on the various federally funded projects. OMB Circular A-122 states charges to
awards for salaries and wages, whether treated as direct costs or indirect costs, will be
based on documented payrolls approved by a responsible officer of the organization.
Also, the distribution of salaries and wages to awards must be supported by personnel
activity reports. Reports maintained by nonprofit organizations must meet certain OMB
Circular A-122 standards. Reports must: 1) reflect an after-the-fact determination of
actual activity of each employee; 2) account for the total activity for which employees
are compensated; 3) be signed by individual employees, or by a responsible
supervisory official having first-hand knowledge of activities performed; and 4) be
prepared at least monthly and must coincide with 1 or more pay periods.

It is the responsibility of the Center’s management to implement established Federal
regulations and internal policies to ensure the accountability of time spent on federally
funded projects such as the BPAO program. SSA should direct the Center to ensure
employees complete personnel activity timesheets to accurately report the amount of
time spent on each program.
11
     OMB Circular A-122, supra note 7.
12
 The State of Florida’s Department of Education/Division of Vocational Rehabilitation Bureau of
Compliance and Oversight A Management Review of The Independent Living Resource Center of
Northeast Florida, Review #0410C dated January 10, 2005.
13
     OMB Circular A-122, supra note 7.
Page 6 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Our review disclosed that the Center submitted inaccurate financial information to SSA.
As a result, we could not determine whether the BPAO program fully benefited from all
of the Federal funds provided in the grant. The changed accounting records,
misrepresented financial information, and the noncompliance with the reporting of
personnel activity time demonstrate the inadequate financial management by the
Center.

We recommend SSA:

   1. Direct the Center to refund to SSA the overstated amount of $15,460 for the
      unsupported increases in the accounting records.

   2. Direct the Center to justify the additional $11,590 which exceeded its accounting
      records or to refund to SSA the overstated amount of $11,590 for the amounts
      that exceeded the accounting records.

   3. Increase its oversight of the Center’s financial reports.

   4. Direct the Center to comply with Federal regulations and internal policies and
      procedures to accurately report the time employees spend on the various
      federally funded projects.

SSA COMMENTS
SSA agreed with our recommendations. The text of SSA’s comments is included in
Appendix D.

THE CENTER’S COMMENTS
The Center disagreed with our recommendations. Specifically, the Center believes:

   •   discrepancies in the Center’s accounting records were adequately explained;
   •   the SF-269As submitted to SSA were to merely request grant funds quarterly;
       and
   •   it properly reported time spent on federally funded projects.

Additionally, the Center requested any and all information pertaining to a review
conducted by the Florida Department of Education/Division of Vocational Rehabilitation
Bureau of Compliance and Oversight be removed from our audit report. The Center
provided us with a letter prepared by its attorneys taking issue with certain findings
presented in the Florida Department of Education’s report.

The text of the Center’s comments is included in Appendix E. We did not include the
appendices the Center submitted due to their volume.
Page 7 - The Commissioner


OIG RESPONSE
We thank SSA and the Center for their responses to our draft report. We reaffirm our
conclusions and recommendations. While we appreciate the information provided by
the Center, it is our opinion that the additional information generally confirmed the
findings in our report.

The Center’s response confirmed that the accounting records were changed at the
direction of the former Center Director. The changes to the accounting records were
instituted by changing the allocation ratios of the expenses charged to SSA and other
Center programs. No support was provided to us to justify these changes recorded in
the “official audited documents.”14 The Center indicated actual expenses pertaining to
the SSA Grant were in “a detailed program expense line item form”15 which it submitted
with its response. However, no support was submitted with the form. Also, although
the Center stated it provided official audited documents that supported its position, the
Center’s independent auditors reported that “…Reports submitted to the government
agency detailing the use of funds contained information that was not consistent with the
actual expenditures for the reporting period...There is a lack of control and direction
regarding the accounting system and overall fiscal management over government
contract reporting.”16

The Center stated that the SF-269A is only used to request grant funds quarterly.
Actually, it is a “Financial Status Report,” which is used to certify cash receipts and
outlays. Therefore it should contain information which correctly and completely
identifies all outlays and unliquidated obligations related to this grant.

The Center also stated that this accounting treatment meets the requirements of OMB
Circular A-122, Attachment B [8. Compensation for Personal Services] (m). However,
the section of Circular A-122 cited by the Center does not address the allocation of
personal service costs. The Center stated that it compiles a spreadsheet indicating the
actual percentage of salary cost by grant for each employee and that the proper
distribution of salaries is supported by a monthly activity report provided to and
approved by the Director of Program and Services. We reviewed the Center’s bi-weekly
salary cost spreadsheets, timesheets, and monthly reports. However, the monthly
activity reports provided to the OIG did not provide a break down of the hours each
employee worked on each grant or program. Without the hours worked on each
program, the Center cannot determine the proper allocation of charges to its specific
programs. OMB Circular A-122 requires costs to be adequately documented and that
cost be allocable relative to the benefits received.17


14
   See the Centers response in Appendix E page E-2, first full paragraph.
15
   See the Centers response in Appendix E page E-1, paragraph 3.
16
   Haring & Bushnell, P.A. Report on Compliance and on Internal Controls over Financial Reporting
Based on an Audit of Financial Statements Performed in Accordance with Government Auditing
Standards.
17
   Attachment A, General Principles, A Basic Considerations, sections (2) and (4).
Page 8 - The Commissioner


Our Office of the Chief Counsel to the Inspector General reviewed the Center’s
attorney’s legal opinion dated April 15, 2005, Contracts with the Florida Department of
Education, Division of Vocational Rehabilitation. The Chief Counsel found that the
statements made in the Center’s attorney’s letter were not applicable to our audit or to
the SSA grant awarded to the Center. Therefore, we have decided to retain our
references to the Management Review of ILRC #0410C report, dated January 10, 2005,
issued by the Bureau of Compliance and Oversight, Florida Department of Education,
Division of Vocational Rehabilitation in our report.




                                            S
                                            Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Other Audit Report Findings
APPENDIX D – Agency Comments
APPENDIX E – The Center’s Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                  Appendix A

Acronyms
BPAO             Benefits Planning, Assistance, and Outreach
Center           Independent Resource Center of Northeast Florida
C.F.R.           Code of Federal Regulations
DVR              Division of Vocational Rehabilitation
DoE              The State of Florida’s Department of Education
FY               Independent Resource Center of Northeast Florida’s Fiscal Year
SF-269A          Financial Status Report, Standard Form 269A
OAG              Office of Acquisitions and Grants
ODISP            Office of Disability Income and Security Programs
OMB              Office of Management and Budget
SSA              Social Security Administration
Ticket to Work   Ticket to Work and Work Incentive Improvement Act of 1999
                                                                       Appendix B

Scope and Methodology
We reviewed the financial information reported by the Independent Living Resource
Center of Northeast Florida (Center) on the Financial Status Report, Standard Form
269A for Fiscal Years 2002 through 2004 and the quarterly progress reports to
determine whether the Center accurately reported financial information to the Social
Security Administration (SSA).

We also:

   •   Interviewed SSA’s, Office of Acquisitions and Grants (OAG) and Office of
       Disability Income and Security Programs, Employment Support Programs staff to
       obtain an understanding of various processes associated with the grant,
       including the process for awarding grants and cooperative agreements;

   •   Reviewed Office of Management and Budget Circulars, and appropriate sections
       of the Code of Federal Regulations, OAG’s Grants Administration Manual and
       Grants Policy Handbook to determine the requirements relating to grants;

   •   Interviewed the Center’s employees in Jacksonville, Florida to obtain an
       understanding of various processes associated with maintaining accounting
       records and the reporting of financial data to SSA;

   •   Obtained and reviewed the annual report prepared by an independent
       accounting firm to obtain information concerning the Center’s financial
       statements;

   •   Obtained accounting records from the Center’s accounting system, which we
       tested, analyzed and traced to supporting documentation; and

   •   Obtained and reviewed a report issued by the Florida Department of
       Education/Division of Vocational Rehabilitation titled a Management Review of
       the Independent Living Resource Center of Northeast Florida, Review #0410C
       dated January 10, 2005.

We determined the data in the accounting records was not sufficiently reliable given the
audit objective and intended use of the data. We base this determination on the
unsupported changes made to the accounting records and our tests which resulted in
significant (or potentially significant) problems. Because the use of this data could lead
to an incorrect or unintentional message, we completed the additional tests as
described in the report's findings to arrive at our conclusions and recommendations.




                                           B-1
We conducted our audit in accordance with generally accepted government auditing
standards. Our fieldwork was performed in Baltimore, Maryland and Jacksonville,
Florida, from June 2004 to December 2004.




                                        B-2
                                                                      Appendix C

Other Audit Report Findings
After we completed the audit, we obtained a report from the Office of Inspector General
for the State of Florida’s Department of Education (DoE) issued by the State of Florida’s
DoE, Division of Vocational Rehabilitation (DVR). Its findings were similar to the
findings from our audit. The DVR also found the Center did not properly account for
contracted funds and did not practice sound fiscal management. The DVR’s
management report recommended the Office of Inspector General for the State of
Florida’s DoE perform a thorough financial review of the Center. The specific findings
DVR reported are listed below.

Findings:

   1. The Center had submitted its invoices in compliance with the terms and
      conditions of its contracts.

   2. The DVR’s contract section had not effectively ensured the proper accounting for
      contracted funds.

   3. The Center has not practiced sound fiscal management of Federal and State
      funds.

   4. The Center’s Fiscal Policy and Financial Management Procedures Manual and
      Administrative and Personnel Policies and Procedures Manual were incomplete
      and not in congruence with one another.

   5. The Center did not ensure that employees completed leave requests and flex
      forms according to established policies and procedures.

   6. The Center’s business relationship with the former Executive Director’s husband
      posed a potential conflict-of-interest.

   7. The Center did not ensure that employees completed timesheets in accordance
      with its own policies and procedures.

   8. The Center did not ensure that travel reimbursement forms were completed in
      accordance with Florida Statutes and the terms and conditions of its contracts.

   9. The Center had not ensured property is managed in accordance with the terms
      and conditions of its contracts and the Rules of the Auditor General.
                  Appendix D


Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM

Date:      July 15, 2005                                                         Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Independent Living Resource Center of
           Northeast Florida" (A-15-05-25045)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.


           Let me know if we can be of further assistance. Staff inquiries may be directed to Candace
           Skurnik, Director, Audit Management and Liaison Staff on extension 54636.


           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "INDEPENDENT LIVING RESOURCE CENTER OF NORTHEAST
FLORIDA" (A-15-05-25045)



Thank you for the opportunity to review and comment on the draft report. We agree with the
findings and conclusions presented.


Our responses to the specific recommendations are provided below.


Recommendation 1

Direct the Center to refund to SSA the overstated amount of $15,460 for the unsupported
increases in the accounting records.


Response


We agree. Within 30 days after issuance of the final audit report, we propose to contact the
Independent Living Resource Center of Northeast Florida (Center) and negotiate a date(s) for
repayment of funds in the amount of $15,460.


Recommendation 2

Direct the Center to justify the additional $11,590 which exceeded its accounting records or to
refund to SSA the overstated amount of $11,590 for the amounts that exceeded the accounting
records.


Response

We agree. Within 30 days after issuance of the final audit report, we will contact the Center in
writing and request justification, if any, for the additional $11,590 within two months of receipt
of our letter on this matter and take further action as warranted.


Recommendation 3

Increase its oversight of the Center’s financial reports.




                                                 D-2
Response


We agree. Within 30 days after issuance of the final audit report, we will require that the Center
submit more frequent financial status reports and also have the Center submit invoices through
the Grants Management Team (an additional step in reimbursement) before the invoices are
forwarded to the Division of Central Reporting and Accounting.


Recommendation 4

Direct the Center to comply with Federal regulations and internal policies and procedures to
accurately report the time employees spend on the various federally funded projects.


Response


We agree. Within 30 days after issuance of the final audit report, we will send correspondence
to the Center citing applicable regulations as described in the report.


SSA also provided technical comments, which we incorporated into the report, where
appropriate.




                                               D-3
                        Appendix E


The Center’s Comments
E-1
E-2
E-3
                                                                      Appendix F


OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, (410) 965-9702
   Victoria Vetter, Acting Director, (410) 966-9081
   Lance Chilcoat, Audit Manager, (410) 965-9743


Acknowledgments

In addition to those named above:


   Jackie Patel, Auditor-in-Charge
   Ronald Anderson, Auditor
   Sandra Westfall, Program Analyst
   Annette DeRito, Writer/Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-15-05-25045.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
